IN THE
SUPREME COURT OF THE UNITED STATES

JOHN TRAN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

APPENDIX

Judgment of the First Circuit Court of Appeals

A2

District Court Memorandum and Order

A3

A:1

Case: 17-2101

Document: 00117585455

Page: 1

Date Filed: 05/05/2020

Entry ID: 6336675

United States Court of Appeals
For the First Circuit
_____________________
No. 17-2101
UNITED STATES,
Appellee,
v.
JOHN TRAN,
Defendant - Appellant.
__________________
Before
Lynch, Kayatta and Barron,
Circuit Judges.
__________________
JUDGMENT
Entered: May 5, 2020
Defendant-appellant John Tran has appealed his convictions for receipt and possession of
child pornography. The government has filed a motion for summary disposition, asserting that
this court's opinions in United States v. Levin, 874 F.3d 316 (1st Cir. 2017), and United States v.
Anzalone, 923 F.3d 1 (1st Cir. 2019), are dispositive of Tran's appellate arguments. Tran has not
opposed the government's motion, and the time for doing so has now expired.
Upon consideration, this court's decisions in Levin and Anzalone are dispositive of Tran's
appellate arguments. The government's motion for summary disposition is allowed, and the district
court's judgment is affirmed.

By the Court:
Maria R. Hamilton, Clerk

cc:
David Gerard Tobin, Donald Campbell Lockhart, Randall Ernest Kromm, William W. Fick,
John Tran

A:2

Positive
As of: October 1, 2020 7:28 PM Z

United States v. Tran
United States District Court for the District of Massachusetts
December 23, 2016, Decided; December 28, 2016, Filed
Criminal Action No. 16-10010-PBS
Reporter
226 F. Supp. 3d 58 *; 2016 U.S. Dist. LEXIS 179271 **; 2016 WL 7468005

UNITED STATES OF AMERICA v. JOHN TRAN,
Defendant.

INTRODUCTION
Defendant John Tran is charged
possession of child pornography
U.S.C. § 2252A(a)(5)(B) and one
child pornography in violation
2252A(a)(2)(A).

Core Terms
site, users, pornography, website, homepage, network,
logo, suppress, outrageous, reckless, affiant, message,
anonymity, password, logged, girls, username, females,
hidden, seized, server, login, legs

Counsel: [**1] For John Tran, Defendant: William W.
Fick, LEAD ATTORNEY, Fick & Marx LLP, Boston, MA.
For USA, Plaintiff: David G. Tobin, LEAD ATTORNEY,
United States Attorneys Office, Boston, MA.

Judges: Patti B. Saris, Chief United States District
Judge.

Opinion by: Patti B. Saris

Opinion

[*59] MEMORANDUM AND ORDER
Saris, C.J.

with one count of
in violation of 18
count of receipt of
of 18 U.S.C. §

[*60] This case -- like dozens of others currently
pending across the country -- arises from an FBI
investigation into users of Playpen, a child pornography
website. Playpen operates on the Tor network, which
enables anonymous internet browsing. In February
2015, the government acquired control of Playpen's
server. For two weeks, the government operated the
website. To obtain the IP addresses of the site's users,
the government applied for and received a search
warrant from a magistrate judge in the Eastern District
of Virginia. The search warrant allowed the FBI to
deploy a Network Investigative Technique ("NIT") on
users' computers around the country. The NIT caused
users' computers to transmit identifying information,
including IP addresses, to [**2] the government.
The defendant moves to dismiss the indictment on the
basis that the government acted outrageously in
maintaining the child pornography website Playpen for
two weeks during the FBI's investigation. The defendant
also moves to suppress all evidence gathered by the
NIT as well as all fruits of the allegedly unconstitutional
search.
For the reasons set forth below, the defendant's motion
to dismiss (Docket No. 44) and motion to suppress
(Docket No. 45) are DENIED.

FACTUAL BACKGROUND
The Court has previously described the facts of the

A:3

Page 2 of 7
226 F. Supp. 3d 58, *60; 2016 U.S. Dist. LEXIS 179271, **2
FBI's Playpen investigation. See United States v.
Anzalone ("Anzalone II"), No. 15-10347-PBS, 221 F.
Supp. 3d 189, 2016 U.S. Dist. LEXIS 149742, 2016 WL
6476939, at *1-3 (D. Mass. Oct. 28, 2016) (denying
defendant's motion to dismiss); United States v.
Anzalone ("Anzalone I"), No. CR 15-10347-PBS, 208 F.
Supp. 3d 358, 2016 U.S. Dist. LEXIS 129735, 2016 WL
5339723, at *1-5 (D. Mass. Sept. 22, 2016) (denying
defendant's motion to suppress). The Court incorporates
and assumes familiarity with these two opinions. The
Court offers a brief review of those facts for the
convenience of the reader.

I. The Tor Network
The Tor network, also known as The Onion Router, is
an anonymity network that masks a user's IP address.
To access the Tor network, a user must download an
add-on to the user's existing browser or download the
Tor browser bundle. To ensure anonymity [**3] for its
users, the Tor network bounces communications
through various relay computers. When a user accesses
a website, the IP address of the last computer in that
chain is displayed, rather than the user's IP address.
Within the Tor network, sites can be designed as
"hidden services." Hidden services allow websites and
other servers to hide their location by replacing a
traditional IP address with a Tor-based web address.

II. The Playpen Website
Playpen was a website dedicated largely to child
pornography. Playpen operated on Tor as a hidden
service. According to Special Agent Douglas
Macfarlane's affidavit in support of the February 20,
2015 search warrant, a user could not inadvertently
arrive at the Playpen site: "Tor hidden services are not
indexed like websites on the traditional Internet.
Accordingly, unlike on the traditional Internet, a user
may not simply perform a Google search for the name
of one of the websites on Tor to obtain and click on a
link to the site." Macfarlane Aff. ¶ 10, Docket No. 61, Ex.
1. To learn Playpen's unique Tor address, a user might
communicate directly with others on Tor or he might
consult another site that lists links to child pornography
hidden service [**4] sites. Agent Macfarlane concluded
that accessing Playpen "therefore requires [*61]
numerous affirmative steps by the user, making it
extremely unlikely that any user could simply stumble
upon [Playpen] without understanding its purpose and

content." Id.
Agent Macfarlane described Playpen's homepage as it
appeared on February 18, 2015, two days before he
signed the affidavit. At the top left corner of the page,
the name Playpen was prominently displayed. On either
side of the site name were images depicting partially
clothed prepubescent girls with their legs spread apart.
Below these images, the site stated: "No cross-board
reposts, .7z preferred, encrypt filenames, include
preview . . . ." Id. ¶ 12. Agent Macfarlane explained that
"no cross-board reposts" was an instruction to users not
to post material appearing on other sites. The ".7z
preferred" statement referred to a method of
compressing large files for distribution. At the top right
corner, to the right of the site name, users could enter a
username and password, and select a session length. A
login button appeared to the right of those login fields.
Below the site name, the image of the two partially
clothed girls, and the login fields [**5] was a textbox
that read: "Warning! Only registered members are
allowed to access the section. Please login below or
'register an account' . . . with Playpen." Id. The "register
an account" text was hyperlinked to the site's
registration page. Another set of login fields appeared
below this warning, asking users to enter their
username, password, minutes to stay logged in, and
whether they wanted to permanently remain logged in.
When a prospective user clicked the "register an
account" hyperlink, the user saw a message from the
forum operators. The message explained that the forum
required new users to enter an email address and that
the software "checks that what you enter looks
approximately valid." Id. ¶ 13. However, the forum
operators encouraged users to enter fake email
addresses: we "do NOT want you to enter a real
address, just something that matches the xxx@yyy.zzz
pattern . No confirmation email will be sent. This board
has been intentionally configured so that it WILL NOT
SEND EMAIL, EVER." Id. The message further
cautioned new users: "For your security you should not
post information here that can be used to identify you."
Id. The forum operators emphasized the site's
focus [**6] on anonymity: "The website is not able to
see your IP and can not collect or send any other form
of information to your computer except what you
expressly upload," explaining that only a text file with the
user's username and password reside in the browser's
cache. Id.
The defendant and the government agree that one

A:4

Page 3 of 7
226 F. Supp. 3d 58, *61; 2016 U.S. Dist. LEXIS 179271, **6
aspect of the homepage changed between February 18,
2015, when Agent Macfarlane last visited the Playpen
site, and February 20, 2015, when Agent Macfarlane
submitted the search warrant application. On February
18, 2015, Agent Macfarlane visited the Playpen site. He
confirmed that the site's content had not changed.
However, on February 19, 2015, the day after Agent
Macfarlane's last visit and the day before he submitted
the search warrant application, the logo on Playpen's
site was altered. Instead of two prepubescent, partially
clothed girls with their legs spread, the site featured one
young girl (age unclear) wearing a short dress and black
stockings with her legs crossed. Therefore, the affidavit
incorrectly described the homepage. Agent Macfarlane
did not know of this change when he signed the affidavit
on February 20, 2015.
After logging into Playpen with a username [**7] and
password, visitors to the site had access to various
forums, many of which contained child pornography.
Most of Playpen's content was not hosted directly [*62]
on the Playpen site; instead, Playpen operated primarily
as a bulletin board on which users posted links to other
websites from which child pornography could be
downloaded along with preview images and the
passwords needed to download and decrypt the illegal
files.
Various features of the site allowed for the
dissemination of child pornography: a private messaging
function, an image hosting feature, a file hosting feature,
and a chat feature.

III. The NIT and the FBI Investigation
On February 19, 2015, the FBI arrested Steven Chase - Playpen's principal administrator -- and assumed
control of Playpen, moving a copy of the site to a
government server in the Eastern District of Virginia.
From that location, the government operated the
website for two weeks, from February 20 to March 4,
2015, in order to identify the IP addresses of Playpen
users. After procuring a warrant from a magistrate judge
in the Eastern District of Virginia, the government
deployed the NIT on users' computers that caused
those computers to transmit their IP [**8] address and
other pieces of identifying information back to the
government. Because Playpen resided on the Tor
network, Agent Macfarlane explained that the NIT was
necessary to identify the site's users because other
methods typically used in criminal investigations "have
been tried and have failed or reasonably appear to be

unlikely to succeed if they are tried." Id. ¶ 31. After
obtaining users' IP addresses, the FBI paired that
information with the content the users accessed on the
site. The government then sought additional warrants to
physically search users' homes for child pornography.
During the two weeks that the government ran Playpen,
the defendant was logged in for a total of one hour and
47 minutes. After learning this and the defendant's IP
address, the government sought a warrant to search his
parents' home in Waltham, Massachusetts.
During the two-week period that the government
operated Playpen, links to child pornography remained
mostly accessible to the site's visitors. The government
catalogued many of the images and videos that were
made available via these links.
At no point during this two-week window did the FBI
post new images, videos, or links to child
pornography. [**9] Nor did the FBI enhance the site,
either in its content or functionality, beyond what
predated the government takeover.
The government did restore the site's file hosting
feature, which was briefly down at the time the FBI
seized the site and had existed prior to the
government's seizure. Upon takeover, the government
disabled a section of the site called the Producer's Pen.
The Producer's Pen encouraged members to produce
and share new child pornography. An undercover FBI
agent, posing as the site's administrator, posted a
message stating that this section would be revived in
the near future. The agent wrote the message to
prevent users from suspecting the government
investigation. The Producer's Pen section never actually
reappeared on the site.
The FBI reviewed all site postings, including chat and
private messages, to assess and mitigate any potential
harm to children. As of October 2016, about forty-nine
children had been identified or rescued from hands-on
abuse as a result of the investigation.
The government held regular meetings to assess
whether to continue to operate Playpen. On March 4,
2015, after running the site for two weeks, the
government shut it down.

[*63] DISCUSSION

A:5

Page 4 of 7
226 F. Supp. 3d 58, *63; 2016 U.S. Dist. LEXIS 179271, **9
I. Motion [**10] to Dismiss

Id.

The defendant argues that this case should be
dismissed, asserting that the FBI's decision to continue
operating the Playpen site for two weeks constituted
outrageous government conduct.

The defendant provides no evidence to corroborate
these assertions. At hearing, the Court asked the
defendant to provide a supplemental filing with such
evidence. He has not done so. In the absence of any
evidence that this section remained on the site during
the two weeks in question and without a clearer sense
of what information this section contained, the
Court [**12] cannot consider these unsubstantiated
assertions.

Every district court to consider this same argument has
found it wanting. See, e.g., United States v. Owens, No.
16-CR-38-JPS, 2016 U.S. Dist. LEXIS 167559, 2016
WL 7079617, at *5 (E.D. Wis. Dec. 5, 2016) ("Whether
the government should have operated the Playpen
website in the manner it did is an entirely different
question that is not before the Court today. The Court is
confident, however, that the government's actions in this
matter were not so outrageous as to justify the dismissal
of the indictment against Mr. Owens."); United States v.
Allain, No. 15-CR-10251, 213 F. Supp. 3d 236, 2016
U.S. Dist. LEXIS 134605, 2016 WL 5660452, at *13 (D.
Mass. Sept. 29, 2016) (Burroughs, J.) ("Reasonable
minds will no doubt differ on whether the government
made the right choice here, but it is not the rare case in
which any misconduct on the part of the government
was sufficiently blatant, outrageous, or egregious to
warrant the dismissal of the indictment.").
This Court has also previously considered and rejected
this outrageous conduct argument. Anzalone II, 2016
U.S. Dist. LEXIS 149742, 2016 WL 6476939, at *5. As
with the defendant in Anzalone, the defendant here is
effectively asking the Court to second-guess the FBI's
investigative techniques. The defendant asserts that the
FBI could [**11] have performed aspects of the
operation differently and still achieved similar results.
That may or may not be true. But the standard for
dismissal requires much more than that. See United
States v. Guzman, 282 F.3d 56, 59 (1st Cir. 2002)
("[T]he outrageous government misconduct doctrine is
reserved for the most appalling and egregious
situations.").
The Court pauses momentarily to respond to two
arguments not previously addressed in its Anzalone II
order.
First, when describing the content of the Playpen site
during the two-week period that the government
operated it, the defendant says that the site included a
"How To" advice section. He asserts that this section
provided "instructional information about sexual abuse
of children and avoiding detection." Docket No. 44 at 8.
Allegedly, "[n]ew postings were added to this section
throughout the time that the FBI was operating the site."

Second, the defendant argues that the government
violated a number of laws, particularly 18 U.S.C. §
3509(m), in operating Playpen. Section 3509 was
enacted as part of the Adam Walsh Act in 2006. The
cited subsection states: "In any criminal proceeding, any
property or material that constitutes child pornography
(as defined by section 2256 of this title) shall remain in
the care, custody, and control of either the Government
or the court." 18 U.S.C. § 3509(m) (1). In his brief, the
defendant omits the "in any criminal proceeding"
language. See Docket No. 44 at 15. The plain language
indicates that this section does not govern the FBI's
investigative techniques here. Its placement in the code
in Chapter 223, which outlines criminal procedure
requirements for witnesses and other evidence, belies
the defendant's argument [*64] that § 3509(m) applies
to the investigation at issue. Finally, the defendant does
not cite any authority for the proposition that a violation
of this section for law enforcement purposes supports a
finding of outrageous government conduct.
The Court DENIES the defendant's motion to dismiss.

II. Motion to Suppress
In his motion to suppress, the defendant raises five
arguments not explicitly addressed [**13] in the Court's
Anzalone I order: (1) the NIT warrant was expressly
limited to searches in the Eastern District of Virginia; (2)
the warrant violated the Federal Magistrates Act (in
addition to Federal Rule of Criminal Procedure 41); (3)
the Rule 41 violation was deliberate; (4) the warrant was
not supported by probable cause; and (5) a Franks
hearing is warranted because, the defendant argues,
one of the agents involved in the Playpen investigation
was aware that the warrant application incorrectly
described the Playpen homepage.

A. NIT Warrant's Geographic Scope

A:6

Page 5 of 7
226 F. Supp. 3d 58, *64; 2016 U.S. Dist. LEXIS 179271, **13
The defendant argues that the warrant is expressly
limited to searches of computers in the Eastern District
of Virginia. The government does not respond to this
argument.

[*65] The Court finds that the warrant permitted the
NIT to gather data from activating computers outside of
the Eastern District of Virginia.

In support of this interpretation, the defendant cites the
warrant's first page, which begins: "An application by a
federal law enforcement officer or an attorney for the
government requests the search of the following person
or property located in the Eastern District of Virginia."
Docket No. 45, Ex. 2 at 2. The warrant then states that
the magistrate judge should "[i]dentify the person or
describe the property to be searched and give its
location." Id. What follows is a notation to "See
Attachment A." Id. Attachment [**14] A explains that the
NIT would be deployed on the government server in the
Eastern District of Virginia, and that the NIT would
obtain information from "activating computers." See id.
at 3. The warrant did not limit the location of the
"activating computers" to the Eastern District of Virginia.
See id. ("This warrant authorizes the use of a network
investigative technique ('NIT') to be deployed on the
computer server described below, obtaining information
described in Attachment B from the activating
computers described below."). The warrant explained
that the "activating computers are those of any user or
administrator who logs into the TARGET WEBSITE by
entering a username and password." Id. Attachment B
outlined the data that would be seized from these
activating computers: "From any 'activating' computer
described in Attachment A," the NIT warrant was to
seize seven pieces of data including the computer's IP
address. Id. at 4.

B. Violation of the Federal Magistrates Act

A complete, contextual reading of the warrant
demonstrates, as other district courts have found, that
the warrant was not geographically limited to activating
computers in the Eastern District of Virginia. See United
States v. Levin, No. CR 15-10271-WGY, 186 F. Supp.
3d 26, 2016 U.S. Dist. LEXIS 52907, 2016 WL 2596010,
at *5 n.8 (D. Mass. May 5, 2016) (Young, J.) ("That
the [**15] cover page of the NIT Warrant application
indicated that the property to be searched was located
in the Eastern District of Virginia does not alter this
conclusion."); United States v. Michaud, No. 3:15-cr05351-RJB, 2016 U.S. Dist. LEXIS 11033, 2016 WL
337263 at *4 (W.D. Wash. Jan. 28, 2016) ("Mr.
Michaud's argument requires an overly narrow reading
of the NIT Warrant that ignores the sum total of its
content. While the NIT Warrant cover sheet does
explicitly reference the Eastern District of Virginia, that
reference should be viewed within context . . . .").

The defendant argues that the NIT warrant failed to
comply with the Federal Magistrates Act. The
government says that the Court's analysis of Rule 41 in
Anzalone I applies to the Federal Magistrates Act.
The Federal Magistrates Act states that a "United States
magistrate judge serving under this chapter shall have
within the district in which sessions are held by the court
that appointed the magistrate judge, at other places
where that court may function, and elsewhere as
authorized by law . . . (1) all powers and duties
conferred or imposed [**16] upon United States
commissioners by law or by the Rules of Criminal
Procedure for the United States District Courts . . . ." 28
U.S.C. § 636(a)(1).
Whether the Federal Magistrates Act was violated can
be answered by asking if the warrant complies with Rule
41. See Levin, 2016 U.S. Dist. LEXIS 52907, 2016 WL
2596010, at *3 ("The conduct underlying each of these
alleged violations is identical: the magistrate judge's
issuance of a warrant to search property located outside
of her judicial district. Moreover, because Section 636(a)
expressly incorporates any authorities granted to
magistrate judges by the Federal Rules of Criminal
Procedure, the Court's analyses of whether the NIT
Warrant was statutorily permissible and whether it was
allowed under Rule 41(b) are necessarily intertwined."
(citation omitted)); see also United States v. Matish, No.
4:16CR16, 193 F. Supp. 3d 585, 2016 U.S. Dist. LEXIS
82279, 2016 WL 3545776, at *16 (E.D. Va. June 23,
2016) (discussing Levin's analysis of this issue).
The Court has already addressed Rule 41 and the good
faith exception. See Anzalone I, 2016 U.S. Dist. LEXIS
129735, 2016 WL 5339723, at *8-11. That analysis
applies with equal force to the Federal Magistrates Act.
Therefore, the Court concludes that the good faith
exception applies even if issuance of the search warrant
did not comply with Rule 41(b) and the Federal
Magistrates Act.

C. Nature of Rule 41 Violation
The

A:7

defendant

contends

that

the

government

Page 6 of 7
226 F. Supp. 3d 58, *65; 2016 U.S. Dist. LEXIS 179271, **16
deliberately violated Rule 41, aware that [**17] the rule
would not permit the NIT warrant issued in this case. As
evidence, the defendant cites Special Agent Daniel
Alfin's testimony from the hearing the Court held in
Anzalone II. During that evidentiary hearing, Agent Alfin
testified that the NIT warrant was vetted by the highest
levels of the FBI and DOJ. See Docket No. 45, Ex. 5 at
46-47 (stating that the decision to seek the NIT warrant
and continue operating Playpen "was done with the
approval of executives in both the FBI and the
Department of Justice"). As evidence of the DOJ's
purported knowledge that Rule 41 did not permit the
issuance of the NIT warrant, the defendant notes that
DOJ recently sought amendments to Rule 41, changes
which were recently enacted. See Fed. R. Crim. P.
41(b)(6)(A) ("[A] magistrate judge with authority in any
district where activities related to a crime may have
occurred has authority to issue a warrant to use remote
access to search electronic storage media and to seize
or copy electronically stored information located within
or outside that district if . . . (A) the district where the
media or information is located has been concealed
through technological means."); see also 2016
Amendments to Fed. R. Crim. P. 41 advisory
committee's note ("First, subparagraph [**18] (b)(6)(A)
provides authority to issue [*66] a warrant to use
remote access within or outside that district when the
district in which the media or information is located is
not known because of the use of technology such as
anonymizing software.").
A high-level vetting is evidence of good faith, not bad
faith because the law is now clear as to whether Rule 41
would be violated in light of the novel nature of the
technology. A number of courts have found that Rule 41
permitted the NIT warrant even before the 2016
amendments took effect. See, e.g., Matish, 2016 U.S.
Dist. LEXIS 82279, 2016 WL 3545776, at *17 (finding
that Rule 41, as then written, authorized magistrate
judge to issue the NIT warrant); United States v. Darby,
No. 2:16CR36, 190 F. Supp. 3d 520, 2016 U.S. Dist.
LEXIS 74960, 2016 WL 3189703, at *12 (E.D. Va. June
3, 2016) (same); United States v. Epich, No. 15-CR163-PP, 2016 U.S. Dist. LEXIS 180594, 2016 WL
953269, at *2 (E.D. Wis. Mar. 14, 2016) (same). The
Court does not find that the government deliberately
violated Rule 41.

D. Probable Cause
The defendant argues that there was no probable cause
to issue the NIT warrant. The Court has already

concluded otherwise. See Anzalone I, 2016 U.S. Dist.
LEXIS 129735, 2016 WL 5339723, at *6-7.

E. Franks Hearing
Only one new issue raised by the defendant gives the
Court pause. The defendant requests a Franks hearing,
asserting that Special Agent Daniel Alfin knew that the
NIT warrant inaccurately described the images on the
Playpen homepage and that no probable cause [**19]
would exist in the absence of this false portrayal. In a
supplemental filing, the government asserts that Agent
Alfin did not know that the homepage had changed
before Special Agent Douglas Macfarlane submitted the
search warrant application.
To obtain a Franks hearing, the defendant must make "a
substantial preliminary showing that a false statement
knowingly and intentionally, or with reckless disregard
for the truth, was included by the affiant in the warrant
affidavit," and that the "allegedly false statement [was]
necessary to the finding of probable cause." United
States v. Castillo, 287 F.3d 21, 25 (1st Cir. 2002)
(quoting Franks v. Delaware, 438 U.S. 154, 155-56, 98
S. Ct. 2674, 57 L. Ed. 2d 667 (1978)). "Suppression of
the evidence seized is justified if, at such a hearing, the
defendant proves intentional or reckless falsehood by
preponderant evidence and the affidavit's creditworthy
averments are insufficient to establish probable cause."
United States v. Tanguay, 787 F.3d 44, 49 (1st Cir.
2015). "To prove reckless disregard for the truth, the
defendant must prove that the affiant in fact entertained
serious doubts as to the truth of the allegations." United
States v. Ranney, 298 F.3d 74, 78 (1st Cir. 2002)
(citation omitted).
There is no evidence that Agent Macfarlane personally
knew of the updated homepage logo before submitting
the warrant application. The application describes the
Playpen site as it appeared from September [**20] 16,
2014 to February 3, 2015. See Macfarlane Aff. ¶ 11,
Docket No. 61, Ex. 1. On February 18, 2015, Agent
Macfarlane learned that the site's URL had changed.
See id. ¶ 11 n.3. That day, he accessed Playpen at the
new URL "and determined that its content ha[d] not
changed." Id.
The defendant maintains that Special Agent Daniel Alfin
knew of the change before Agent Macfarlane submitted
the search warrant application, and that Agent Alfin's
knowledge should be imputed to the affiant for purposes
of deciding whether to hold a Franks hearing. The Court

A:8

Page 7 of 7
226 F. Supp. 3d 58, *66; 2016 U.S. Dist. LEXIS 179271, **20
agrees that, in some circumstances, a knowing or [*67]
reckless omission by a fellow investigator may be
grounds to hold a Franks hearing, even if the affiant
himself did not know that his application contained
material falsehoods or omissions. See United States v.
DeLeon, 979 F.2d 761, 764 (9th Cir. 1992) ("A
deliberate or reckless omission by a government official
who is not the affiant can be the basis for a Franks
suppression. The Fourth Amendment places restrictions
and qualifications on the actions of the government
generally, not merely on affiants.").
It is unclear, however, what Agent Alfin knew and when
he knew it. The evidence the defendant cites regarding
Agent Alfin's knowledge of the change to the
homepage's appearance [**21] is based on testimony
Agent Alfin gave in United States v. Jean, a Playpen
case in the Western District of Arkansas. See Docket
No. 45 at 21; Docket No. 45, Ex. 10. In that testimony,
Agent Alfin explains that FBI agents began searching
the home of Steven Chase, Playpen's principal
administrator, on February 19, 2015. See Docket No.
45, Ex. 10 at 34-35. Sometime on February 19, Chase
changed the logo from two prepubescent, partially
clothed girls with their legs spread to one young girl
wearing a short dress and black stockings with her legs
crossed. That change was visible on Chase's laptop
when the agents arrested him. In confusing testimony,
Agent Alfin explains that he "did see the administrator's
laptop screen. I did see that he was logged in to
Playpen and so I did see the new logo." Id. at 35. Alfin,
however, also states that he "did not observe the new
logo at the time. It did not jump out to me as a
significant or material change to the website." Id.
In supplemental briefing,1 the government proffers that,
although Agent Alfin "looked at the Playpen homepage
on the early morning of February 20, 2015, prior to
leaving the Chase residence, he did not notice that the
image of two minor [**22] females had been replaced
with an image of one minor female." Docket No. 68 at 3.
"Only later did he learn that, just hours before law
enforcement arrived at the Chase residence, the image
of two minor females was replaced with an image of one
minor female." Id. "Special Agent Alfin stated that had
he been aware of the change to the homepage prior to
the submission of the Affidavit later on February 20,

2015, he would have taken steps to ensure that the
description of the homepage in the Affidavit was
updated to reflect the change." Id.
The Court does not decide whether Agent Alfin noticed
the new logo or whether, if he had noticed it during the
early morning hours of February 20, he was reckless in
failing to relay that information to Agent Macfarlane
before the search warrant application was submitted
later that same morning. The Court need not address
this issue because, even if Agent Alfin's conduct
constituted recklessness, the new logo would not have
changed the probable cause analysis. See Matish, 2016
U.S. Dist. LEXIS 82279, 2016 WL 3545776, at *12
(holding that the "logo change lacks significance
because the probable cause rested not solely on the
site's logo but also on the affiant's description that the
entire site was dedicated [**23] to child pornography,
Playpen's suggestive name, the affirmative steps a user
must take to locate Playpen, the site's repeated
warnings and focus on anonymity, and the actual
contents of the site"); Darby, 2016 U.S. Dist. LEXIS
74960, 2016 WL 3189703, at *9 ("[C]ontrary to the
[*68] repeated emphasis of Defendant, the images of
two prepubescent females described in the warrant
application were not necessary to the finding of
probable cause. There was an abundance of other
evidence before the magistrate judge that supported her
finding that there was probable cause to issue the
warrant.").
The Court concludes that the defendant has not made
the showing required for the Court to hold a Franks
hearing.

ORDER
The defendant's motion to dismiss (Docket No. 44) and
motion to suppress (Docket No. 45) are DENIED. The
Court ORDERS the government to submit an affidavit
from Special Agent Daniel Alfin regarding the content
discussed in the government's December 15, 2016
proffer.
/s/ PATTI B. SARIS
Patti B. Saris
Chief United States District Judge

1 The

government states that it spoke with Special Agent
Daniel Alfin about the homepage changes. See Docket No. 68
at 2. The government is ordered to submit an affidavit from
Agent Alfin on this topic.

A:9

End of Document

